                                                                             Report No. DODIG-2013-106




              I nspec tor Ge ne ral
                                                       Department of Defense

              J U LY 1 9 , 2 0 1 3




                     Defense Advanced Research Projects
                     Agency Properly Awarded Contracts
                     for Disc-Rotor Research and
                     Development




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I n t e g r I t y  e f f I c I e n c y  a c c o u n ta b I l I t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          F




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Defense Advanced Research Projects Agency Properly
                                       Awarded Contracts for Disc-Rotor Research and
                                       Development


July 19, 2013                                          Findings Continued

Objective                                                    multipliers. DARPA personnel received 147 white paper
                                                             topic submissions and 72 proposals to Broad Agency
We conducted this audit in response to a                     Announcement 06-15.
congressional request for the DoD Inspector
General to investigate a constituent’s complaint          •	 properly awarded contract HR0011-09-C-0056 to Boeing on
concerning an improper contract award for                    January 30, 2009, for about $7.3 million. DARPA contracting
disc-rotor technology. We determined whether                 personnel properly awarded the noncompetitive contract as
Defense Advanced Research Projects Agency                    a logical follow-on to the earlier effort conducted by Boeing
(DARPA) personnel complied with Federal laws                 and VPI.
and DoD guidance when awarding contracts to
                                                          •	 followed appropriate procedures when responding to the
The Boeing Company (Boeing) for disc-rotor
                                                             complainant’s white paper and proposal submissions.
technology research and development.
                                                             DARPA personnel responded to three of four white paper
                                                             submissions with a recommendation based on the relevance
Findings                                                     to the mission and a preliminary technical assessment. Finally,
                                                             DARPA personnel appropriately notified the complainant
DARPA personnel followed Federal and DoD
                                                             that his proposals were not selected for award based on their
acquisition regulations when awarding two
                                                             evaluation.
contracts for disc-rotor technology research
and development to Boeing. The total obligated         Overall, DARPA personnel complied with a fair and competitive
value of the contracts was about $8.9 million as       contract award process for disc-rotor technology research and
of June 20, 2013. Specifically DARPA personnel:        development. DARPA personnel openly competed the procurement,
                                                       properly solicited, and properly awarded disc-rotor technology
   •	 properly awarded contract HR0011-                contracts to Boeing.
      07-C-0076 to Boeing on June 25, 2007, for
      $499,972, to perform a seedling concept
      study, a disc-rotor research effort, with        Comments
      Virginia Polytechnic Institute and State         No written response to this report was required. Therefore, we are
      University (VPI). DARPA contracting              publishing this report in final form.
      personnel competitively awarded the
      contract based on Boeing’s white paper
      and subsequent proposal submission
      to Broad Agency Announcement  06‑15
      to develop innovative ideas in the
      areas of aerospace systems and tactical




Visit us on the web at www.dodig.mil


                                                                            DODIG-2013-106 (Project No. D2013-D000CG-0058.000) │ i
                                                         INSPECTOR GENERAL
                                                        DEPARTMENT OF DEFENSE
                                                        4800 MARK CENTER DRIVE
                                                     ALEXANDRIA, VIRGINIA 22350-1500


                                                                                                       July 19, 2013

                      MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                                       TECHNOLOGY, AND LOGISTICS
                                     DIRECTOR, DEFENSE ADVANCED RESEARCH PROJECTS AGENCY

                      SUBJECT: Defense Advanced Research Projects Agency Properly Awarded Contracts for
                               Disc-Rotor Research and Development (Report No. DODIG-2013-106)

                      We are providing this report for your information and use. We conducted this audit
                      in response to a congressional request on May 8, 2012, requesting the Department of
                      Defense Inspector General investigate a constituent's complaint concerning an improper
                      contract award for the research and development of disc-rotor technology to The Boeing
                      Company.

                      Defense Advanced Research Projects Agency (DARPA) personnel followed Federal
                      and DoD acquisition regulations when awarding contracts HROOll-07-C-0076 and
                      HR0011-09-C-0056 for the research and development of disc-rotor technology to The
                      Boeing Company. Also, DARPA personnel followed proper procedures in addressing
                      the complainant's white paper topic submissions, proposals, and letters. Therefore, the
                      complainant's allegations were not substantiated. We did not make a determination
                      on the allegation that DARPA personnel improperly awarded contracts to Boeing that
                      infringed on the complainant's patents for disc-rotor blade technology. Defense Federal
                      Acquisition Regulation Supplement (DFARS) Part 227 provides private parties with a
                      process for filing administrative claims for patent infringement against DoD Components.
                      A civil suit for patent infringement against the United States may also be filed in the
                      U.S. Court of Federal Claims under section 1498, title 28 United States Code.

                          No written response to this report was required, and we are publishing this report in final
                          form.

                      We appreciate the courtesies extended to the staff. Please direct questions to me at
                      (703) 604-9077 (DSN 664-9077).



                                                                                                /        ~        ~
                                                                          L£A~.--wy' L<Lu>\ • (jj~uU
                                                                                line L. Wicecarver
                                                                         Assistant Inspector General
                                                                         Acquisition, Parts, and Inventory




ii   I DODIG-2013 - 106
Contents
Introduction
Objective _________________________________________________________________________________________1
Background ______________________________________________________________________________________1
Defense Advanced Research Projects Agency_________________________________________________1
Review of Internal Controls ____________________________________________________________________3

Finding. Personnel Properly Awarded Disc-Rotor
Research and Development Contracts to Boeing ____________4
Allegations and DoD Inspector General Responses __________________________________________5
    Personnel Properly Awarded Contract HR0011-07-C-0076 ____________________________5
    Personnel Properly Awarded Noncompetitive Contract HR0011-09-C-0056 _________7
    Personnel Properly Considered Disc-Rotor Submissions _______________________________9
    Alleged Patent Infringement ____________________________________________________________ 11
Summary ______________________________________________________________________________________ 11

Appendixes
Appendix A. Scope and Methodology _______________________________________________________ 13
    Use of Computer-Processed Data _______________________________________________________ 14
    Use of Technical Assistance _____________________________________________________________ 14
    Prior Coverage ___________________________________________________________________________ 14
Appendix B. Congressional Request ________________________________________________________ 15
Appendix C. Federal Acquisition Regulation Criteria ______________________________________ 16
    Federal Acquisition Regulation Subpart 5.2, “Synopses of Proposed Contract
    Actions” ___________________________________________________________________________________ 16
    Federal Acquisition Regulation Subpart 5.3, “Synopses of Contract Awards” _______ 16
    Federal Acquisition Regulation Subpart 6.3, “Other Than Full and Open
    Competition” ______________________________________________________________________________ 17
    Federal Acquisition Regulation Part 10, “Market Research” __________________________ 18
    Federal Acquisition Regulation Subpart 15.3, “Source Selection” ____________________ 19
Appendix D. Broad Agency Announcement 06-15 _________________________________________ 20

Acronyms and Abbreviations _____________________________________________ 21


                                                                                                   DODIG-2013-106 │ iii
                                                                                                Introduction




Introduction
Objective
Our objective was to determine whether Defense Advanced Research Projects Agency
(DARPA) personnel complied with Federal laws and DoD guidance when awarding
contracts to The Boeing Company (Boeing) for disc-rotor technology research and
development (R&D).       In addition, the audit addressed allegations raised in the
congressional request. Please see Appendix A for scope and methodology.


Background
This audit report is in response to a congressional request (Appendix B) from Senator
Sherrod Brown and a constituent’s allegations relating to contracts improperly awarded
for disc-rotor technology R&D. According to the allegations, DARPA personnel improperly:

         •	 awarded a $1 million study program to Virginia Polytechnic Institute and
            State University (VPI) to analyze the disc-rotor;

         •	 awarded a $9 million noncompetitive contract for a disc-rotor with telescoping
            storing blades to Boeing;

         •	 denied about 10 of the constituent’s submittals to broad agency announcements
            during the period 1993 through 2009; and

         •	 awarded contracts that infringed on his patents for disc-rotor blade technology.

The complainant holds a U.S. patent for a disc-rotor vertical lift aircraft with component
blades that can be stored in the disc. According to the patent, the disc enables the aircraft
to function as a helicopter when the blades are extended.


Defense Advanced Research Projects Agency
DARPA was created as the Advanced Research Projects Agency in 1958 and established
February 17, 1995, by DoD Directive 5134.10 “Defense Advanced Research Projects
Agency (DARPA).” This directive established DARPA’s mission to serve as the central
R&D organization of DoD with a primary responsibility to maintain U.S. technological
superiority over potential adversaries.




                                                                                            DODIG-2013-106 │ 1
Introduction



                 Broad Agency Announcement Process
                 DARPA primarily announces funding opportunities through broad agency announcements
                 (BAAs) or research announcements and requests for proposals. Federal Acquisition
                 Regulation (FAR) 35.016, “Broad Agency Announcement,” states:

                                  BAAs with Peer or Scientific Review are used for the acquisition of
                                  basic and applied research and that part of development not related to
                                  the development of a specific system or hardware procurement. BAAs
                                  may be used by agencies to fulfill their requirements for scientific study
                                  and experimentation directed toward advancing the state-of-the-art
                                  or increasing knowledge or understanding rather than focusing on a
                                  specific system or hardware solution.


                 Contract Awards Using the Broad Agency Announcements
                 DARPA solicits and evaluates proposals for R&D awards through BAAs. The process in
                 place at the time of the initial disc-rotor contract award was established within DARPA’s
                 internal guidance, including but not limited to: DARPA Instruction No. 13, “Program Funds
                 Commitment, and Acquisition Procedures,” September 9, 1996 (hereby canceled).1 To
                 award a contract through a BAA, DARPA personnel use a scientific review as prescribed
                 in FAR 35.016 to determine what proposal(s) should receive funding based on evaluation
                 criteria and the relative importance of those criteria. The evaluation process requires
                 a minimum of four Government evaluators or as otherwise approved by the Director,
                 DARPA, to analyze the proposal to determine whether it meets the requirements
                 and evaluation criteria established with the BAA. The key individuals responsible for
                 evaluating proposals include the program manager, reviewers, non-voting subject matter
                 experts, and the Source Selection Authority. The reviewers determine whether proposals
                 are “selectable” or “non-selectable.” Subject matter experts may review portions of
                 the proposal. The program manager reviews the proposal, evaluation reports, and any
                 subject matter expert worksheets and determines what proposals are selectable to begin
                 negotiations to award a contract. The Funding Authority, in consultation with the Source
                 Selection Authority, reviews the program manager’s recommendations and makes the
                 final determination for proposals that may receive funding.


                 Competitive Broad Agency Announcement Awards
                 The “Competition in Contracting Act,” implemented in section 2304, title 10, United
                 States Code states that agencies shall obtain full and open competition through the use
                 of competitive procedures in accordance with the FAR. FAR 6.101, “Policy,” requires,


                 	1	
                       DARPA Instruction No.13 was revised and reissued on February 11, 2008.




2 │ DODIG-2013-106
                                                                                              Introduction



“with certain limited exceptions . . . that contracting officers shall promote and provide
for full and open competition in soliciting offers and awarding Government contracts.”
Competitive procedures to meet the requirement include sealed bids, competitive
proposals, combination of competitive procedures, or other competitive procedures.
FAR 6.102, “Use of Competitive Procedures,” states:

           Competitive selection of basic and applied research and that part of
           development not related to the development of a specific system or
           hardware procurement is a competitive procedure if award results
           from --

                  (i) 	 a broad agency announcement that is general in nature
                        identifying areas of research interest, including criteria for
                        selecting proposals, and soliciting the participation of all
                        offerors capable of satisfying the Government’s needs; and

                  (ii)	 a peer or scientific review.


See Appendix C for FAR criteria.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended
and to evaluate the effectiveness of the controls. We did not identify any internal control
weaknesses as they applied to the audit objective.




                                                                                          DODIG-2013-106 │ 3
Finding




                     Finding
                     Personnel Properly Awarded Disc-Rotor Research and
                     Development Contracts to Boeing
                     DARPA personnel followed Federal and DoD acquisition regulations when awarding
                     two contracts for disc-rotor technology R&D to Boeing. The total obligated value of the
                     contracts was about $8.9 million as of June 20, 2013. Specifically DARPA personnel:

                             •	 properly awarded contract HR0011-07-C-0076 to Boeing on June 25, 2007,
                                for $499,972, to perform a seedling concept study, a disc-rotor research
                                effort, with VPI. DARPA contracting personnel competitively awarded the
                                contract based on Boeing’s white paper and subsequent proposal submission
                                to BAA 06-15 to develop innovative ideas in the areas of aerospace systems
                                and tactical multipliers. DARPA personnel received 147 white paper topic
                                submissions and 72 proposals to BAA 06-15.

                             •	 properly awarded contract HR0011-09-C-0056 to Boeing on January 30, 2009,
                                for about $7.3 million. DARPA contracting personnel properly awarded the
                                noncompetitive contract as a logical follow-on to the earlier effort conducted
                                by Boeing and VPI. On September 4, 2008, DARPA personnel issued Special
                                Notice 08-55 to notify the public of their intent to award a noncompetitive
                                contract to Boeing for the continuation (Phase 1) of the disc-rotor program.
                                On February 3, 2009, DARPA personnel issued an award notice to Boeing for a
                                Phase 1 of the disc-rotor risk-reduction study.

                             •	 followed appropriate procedures when responding to the complainant’s
                                white paper and proposal submissions. DARPA personnel responded to
                                three of four white paper submissions with a recommendation based on the
                                relevance to the mission and a preliminary technical assessment. Finally,
                                DARPA personnel appropriately notified the complainant his proposals were
                                not selected for award based on their evaluation.

                     Overall, DARPA personnel complied with a fair and competitive contract award process
                     for disc-rotor technology R&D. DARPA personnel openly competed the procurement,
                     properly solicited, and properly awarded disc-rotor technology contracts to Boeing.




4 │ DODIG-2013-106
                                                                                                      Finding



Allegations and DoD Inspector General Responses
Senator Brown requested that the DoD Inspector General (DoD IG) address his
constituent’s complaints about DARPA personnel improperly awarding contracts for
disc‑rotor technology.             We did not substantiate complaints that DARPA personnel
improperly:

             •	 awarded a $1 million study program to VPI to analyze the disc-rotor,

             •	 awarded a $9 million noncompetitive contract for a disc-rotor with telescoping
                 storing blades to Boeing, and

             •	 denied about 10 of the constituent’s submittals to BAAs during the period
                 1993 through 2009.

We did not make a determination on the allegation that DARPA personnel improperly
awarded contracts to Boeing that infringed on the complainant’s patents for disc‑rotor
blade technology.              Defense Federal Acquisition Regulation Supplement (DFARS)
subpart  227.70, “Infringement Claims, Licenses, and Assignments,” provides private
parties with a process for filing administrative claims for patent infringement against
DoD Components. A civil suit for patent infringement against the United States may also
be filed in the U.S. Court of Federal Claims under section 1498, title 28 United States Code
(28 U.S.C. §1498 [2012]).


Personnel Properly Awarded Contract HR0011‑07‑C‑0076
Allegation 1. DARPA personnel improperly awarded a $1 million contract to VPI for a
study program to analyze the disc-rotor.

DoD IG Response. The allegation was unsubstantiated. DARPA personnel properly
awarded contract HR0011-07-C-0076, valued at $499,972, on June 25, 2007, to perform
a seedling concept study, a disc-rotor research effort, with Boeing.21 DARPA personnel
properly conducted the contract solicitation, contract pre-award, and contract award
phases of the cost-plus-fixed-fee contract, and therefore properly awarded the contract
to Boeing.


Contract Solicitation
DARPA personnel properly issued BAA 06-15, “DARPA Tactical Technology Office
(TTO),” to solicit proposals for advanced R&D of system- and subsystem-level


	2	
      The Boeing Company co-performed the contract with VPI.




                                                                                             DODIG-2013-106 │ 5
Finding



                 technologies that enable revolutionary improvements
                                                                                                                  The
                 in the efficiency and effectiveness of the military on
                                                                                                              goal of the
                 March  20, 2006. The goal of the solicitation was to                                      program was to
                 fund       proposals        that     would        develop       innovative               develop innovative
                 ideas in the areas of aerospace systems and tactical                                    ideas in the areas of
                                                                                                          aerospace systems
                 multipliers.         The BAA did not specifically refer to                                  and tactical
                 disc-rotor technology.                 The BAA 06-15 published                              multipliers.
                 on       the      Federal        Business         Opportunities           website
                 https://www.fedbizopps.gov,                    stated        that       DARPA           TTO
                 personnel          would       receive      all    proposals,       evaluate       them,       select     for   award,
                 and then respond to each white paper within 45 days after receipt.                                                 As
                 soon as the evaluation of a proposal was completed, the offeror would
                 be notified that the proposal was either selected for funding pending contract
                 negotiations or the proposal was not selected.                              See Appendix D for additional
                 information on BAA 06-15.


                 Contract Pre-Award – Evaluation of BAA Submittals
                 DARPA personnel properly followed the procedures contained in FAR Part 35, “Research
                 and Development Contracting,” to evaluate and select awardees for BAAs to fulfill
                 requirements for scientific reviews. All scientific reviews were based on the evaluation
                 criteria detailed in the published BAA.

                 DARPA received 147 white paper topics submitted in response to BAA 06-15. DARPA
                 personnel encouraged 25 responders to submit a proposal based on their white paper
                 submission. DARPA contracting personnel provided letters of “Discouraged” to 122 white
                 papers submissions based on the relevance to the TTO mission and preliminary technical
                 assessment.32 Boeing submitted seven white papers on various topics in response to
                 BAA 06-15. Only one of the seven white papers mentioned disc-rotor technology. DARPA
                 contracting personnel encouraged Boeing to submit proposals for two of their seven
                 white papers. DARPA personnel discouraged other white papers with subjects related to
                 disc-rotor technology submitted under BAA 06-15, such as “Hybrid Helicopter-Airplane
                 for Vertical Take-Off/Vertical Landing, Hover and High Speed Flight,” “Flight Evaluation
                 of a High Speed Vertical Take-Off/Vertical Landing (VTOL) Concept,” and “High Speed
                 Rotorcraft Demonstration Vehicle.”

                 DARPA received 72 proposals in response to BAA 06-15. DARPA personnel evaluated and
                 assessed the proposals on the factors specified in the BAA. Evaluators determined that

                 	3	
                       DARPA records accounted for 147 of the 154 white paper submissions and responses to the 2006 BAA.




6 │ DODIG-2013-106
                                                                                                  Finding



34 proposals would be tentatively selectable for award. DARPA contracting personnel
selected 31 of the 34 proposals for contract award and 3 of the 34 proposals to receive
grants or cooperative agreements. DARPA evaluators determined that 38 proposals
should not receive a contract award. We identified one proposal and three white papers
that discussed either helicopters or disc-rotor technology.      Only the proposal was
selected for contract award and was titled “Vertical Take-Off/Vertical Landing Challenge”
(HR0011‑06‑2‑0011). The complainant did not submit a white paper or a proposal in
response to BAA 06-15.


Contract Awarded to Boeing
The DARPA TTO Source Selection Chairman selected Boeing for contract award to
conduct a seedling concept study, a disc-rotor research effort (Phase 0), on March 30,
2007. Under this Phase 0 contract, Boeing teamed with VPI to conduct disc-rotor trade
studies, design refinement, mechanical systems conceptual layout, wind tunnel testing,
hover rig testing, computational fluid dynamics analysis, and risk reduction planning,
to provide an initial assessment of performance and flying qualities. On June 25, 2007,
DARPA contracting personnel competitively awarded contract HR0011-07-C-0076 to
Boeing for $499,972.


Personnel Properly Awarded Noncompetitive Contract
HR0011-09-C-0056
Allegation 2. DARPA personnel improperly awarded a $9 million noncompetitive contract
for a disc-rotor with telescoping storing blades to Boeing.

DoD IG Response. The allegation was unsubstantiated. We determined DARPA personnel
properly awarded noncompetitive contract HR0011-09-C-0056, valued at about
$7.3 million. Specifically, DARPA personnel properly justified and obtained the proper
approvals before awarding the noncompetitive contract.


                       Noncompetitive Contract Awarded to Boeing
             DARPA             DARPA personnel awarded noncompetitive contract
           personnel             HR0011-09-C-0056 to Boeing for about $7.3 million for
       obtained approval
                                  the continuation of the seedling concept study, a disc-
   from the proper official
      for the Justification       rotor research effort (Phase 0), on January 30, 2009.
     and Approval before          The effort was a logical follow-on to the earlier effort
         awarding the
                                  conducted by Boeing and VPI, which followed Boeing’s
        noncompetitive
            contract.            earlier Canard Rotor Wing program.




                                                                                         DODIG-2013-106 │ 7
Finding



                 DARPA contracting personnel properly justified the noncompetitive contract award
                 to Boeing.     DARPA contracting personnel complied with requirements stated in
                 FAR Subpart 6.3, “Other Than Full and Open Competition.”                Specifically, DARPA
                 personnel referenced the specific authority under which the contract was awarded,
                 complied with content requirements, and obtained approval from the proper official for
                 the Justification and Approval (J&A) before awarding the noncompetitive contract. In
                 addition, DARPA contracting personnel had adequate documentation that justified the
                 noncompetitive award of contract HR0011-09-C-0056 to meet the Government’s needs.


                 Appropriately Applied the Other than Full and Open Competition Authority
                 Cited
                 DARPA personnel appropriately applied the cited authority permitting other than full
                 and open competition in the J&A reviewed. DARPA personnel cited in the J&A the
                 authority of FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
                 Will Satisfy Agency Requirements.” Additionally, DARPA personnel provided adequate
                 rationale in the J&A as to why only one contractor could provide the required product or
                 service and why only that product or service could meet the Government’s requirements.

                 FAR 6.302-1(b) states the authority may be appropriate when unique supplies or services
                 are available from only one source or one supplier with unique capabilities. DARPA
                 contracting personnel explained in the J&A that the contractor is the developer of an
                 analytical, broadly substantiated disc-rotor concept and uniquely able to conduct the
                 detailed Phase I research and concept validation effort for the following reasons.

                          •	 It possesses unique disc-rotor technical knowledge developed under the
                              Phase 0 seedling program that is required to continue the validation effort
                              under Phase I.

                          •	 It possesses a comprehensive understanding of hybrid rotorcraft technical
                              efforts, most importantly from the Canard Rotary Wing effort, where it is the
                              singular owner of development lessons learned that will strongly influence
                              the disc-rotor technical approach.

                          •	 It has understanding and access to capabilities, facilities, and proprietary
                              intellectual/data necessary to successfully conduct the Phase I investigation.

                          •	 The focus of the Phase I research is to develop a definitive understanding of the
                              disc-rotor concept feasibility, and to further refine and develop the conceptual
                              design. The intellectual property developed by Boeing’s earlier studies is a




8 │ DODIG-2013-106
                                                                                                 Finding



           stepping-off point, without which an organization other than Boeing is not
           equipped to perform the proposed research effort.

        •	 To date, Boeing is the only organization to have submitted a compliant
           proposal in response to an open DARPA BAA for research of this particular
           concept.

Complied with Content and Other Federal Acquisition Regulation
Requirements
DARPA personnel documented all the FAR 6.303-2, “Content,” J&A content requirements
and provided enough information in the J&A to justify permitting other than full and open
competition in the award of contract HR0011-09-C-0056. Additionally, DARPA personnel:

        •	 obtained approval from the proper personnel for noncompetitive contract
           award;

        •	 adequately justified and supported other than full and open competition
           determination;

        •	 met J&A market research content requirements; and

        •	 complied with the FAR Part 5, “Publicizing Contract Action,” requirement
           when posting synopsis and award notice on the Federal Business Opportunity
           website on September 4, 2008, and February 3, 2009, respectively.

Personnel Properly Considered Disc-Rotor Submissions
Allegation 3.   DARPA personnel improperly denied about 10 of the complainant’s
submittals to BAAs during the period 1993 through 2009.

DoD IG Response. The allegation was unsubstantiated. We determined that DARPA
followed proper procedures in addressing the complainant’s white paper topic
submissions, proposals, and letters.


Proper Review and Responses to White Papers and Proposals
DARPA personnel provided documentation that the complainant submitted a total of four
white papers and two proposals between the period of August 2002 and August 2009.
DARPA personnel properly considered the complainant’s submissions of white papers
and proposals to its BAAs. DARPA personnel responded to three of four white papers and
both of the proposals the complainant submitted for disc-rotor technology R&D.




                                                                                        DODIG-2013-106 │ 9
Finding



                              •	 August 2002: The complainant submitted a full proposal titled, “Modus
                                  Verticraft UAV Jet Defender,” in response to BAA 01-45. DARPA personnel
                                  completed two evaluations and replied to the complainant notifying his
                                  proposal was not selected for award.

                              •	 July 2004: The complainant submitted a white paper titled, “Modus RotorfanTM
                                  Subsonic vs. Transonic Lift Performance” in response to BAA 04-04. DARPA
                                  personnel sent a “Discourage” letter to the complainant in response to his
                                  Subsonic vs. Transonic Lift Performance white paper.4 3

                              •	 March 2007: The complainant submitted another white paper titled “Modus
                                  Aircraft” in response to BAA 07-20. DARPA personnel evaluated the white
                                  paper as non-selectable and subsequently replied with a “Discourage” letter to
                                  the complainant stating, “the results of the evaluation indicate that if you were
                                  to submit a proposal based upon this white paper, a contract award would be
                                  unlikely; however, you are not precluded from submitting a full proposal.”

                              •	 June 2008: The complainant submitted a fourth white paper titled, “Modus
                                  Aircraft” in response to BAA 08-31. DARPA personnel evaluated the white
                                  paper and replied on September 5, 2008, encouraging the complainant to
                                  submit a full proposal.

                              •	 August 2009: The complainant submitted a full proposal in response to
                                  DARPA’s recommendation to his June 11, 2008 white paper submission.
                                  DARPA personnel evaluated the proposal against the BAA evaluation criteria
                                  and rated the proposal “not selectable.” DARPA personnel replied to the
                                  complainant that the proposal was not selected for award. Following the
                                  notification of non-selection, the complainant addressed two letters to the
                                  Director of DARPA asking for reconsideration of his disc-rotor submittals.
                                  DARPA personnel replied that the complainant could submit proposals to
                                  existing and future BAAs for consideration.

                 Based on the four white paper submissions and two proposals, along with correspondence
                 between the complainant and DARPA personnel, we determined that DARPA personnel
                 properly reviewed and followed procedures in addressing the complainant’s white paper
                 topic submissions, proposals, and letters.




                 	4	
                       The complainant submitted another white paper titled, “Modus RotorfanTM” to which DARPA personnel did not respond
                       with a “Discourage” letter or a letter encouraging the complainant to submit a full proposal.”




10 │ DODIG-2013-106
                                                                                                 Finding



Alleged Patent Infringement
Allegation 4. DARPA personnel improperly awarded contracts that infringed on the
complainant’s patents for disc-rotor blade technology.

DoD IG Response. We did not make a determination on this allegation.

DARPA contracting personnel included within both HR0011-07-C-0076 and HR0011-
09-C-0056 contracts a FAR 52.227-1 “Authorization and Consent,” clause in which
the Government authorizes a contractor to use or manufacture an invention covered
by a U.S. patent.    DARPA contracting personnel also included in both contracts a
FAR 52.227-2, “Notice and Assistance Regarding Patent and Copyright Infringement,”
clause in which the Government requires notice and assistance from its contractors
regarding any claims for patent or copyright infringement. In addition, 28 U.S.C. §1498
[2012] permits patentees to recover “reasonable and entire” compensation from
the United States for its or its contractors unlicensed use or manufacture of patented
inventions. Specifically, 28 U.S.C. §1498 (2012) states:

           Whenever an invention described in and covered by a patent of the
           United States is used or manufactured by or for the United States without
           license of the owner thereof or lawful right to use or manufacture the
           same, the owner’s remedy shall be by action against the United States
           in the United States Court of Federal Claims for the recovery of his
           reasonable and entire compensation for such use and manufacture.


DFARS subpart 227.70 provides private parties with a process for filing administrative
claims for patent infringement against DoD Components. The DARPA General Counsel
stated in a December 2012 e-mail that to his knowledge, the complainant had not
communicated any allegations of patent infringement to DARPA and that DARPA had not
received relevant notices of patent infringement from Boeing or from its subcontractors.


Summary
DARPA personnel properly awarded contracts HR0011-07-C-0076 and HR0011-
09-C-0056. Specifically, DARPA personnel properly conducted the contract solicitation,
contract pre-award, and contract award phases to satisfy cost-plus-fixed-fee contract
requirements, and therefore properly awarded contract HR0011-07-C-0076 to Boeing.
In addition, DARPA personnel adequately justified the use of other than full and open
competition on the J&A for contract HR0011-09-C-0056. DARPA contracting personnel
complied with FAR 6.303-2 content requirements in the J&A and appropriately
applied the authority cited and obtained approval from the proper personnel before




                                                                                       DODIG-2013-106 │ 11
Finding



                 contract award. Further, DARPA contracting personnel documented compliance with
                 FAR Part  5. DARPA followed established procedures in addressing the complainant’s
                 white paper topic submissions, proposals, and letters. Lastly, both DFARS subpart
                 227.70 and 28 U.S.C. §1498 provide affected parties with the possibility of administrative
                 and/or judicial relief, respectively, for possible patent infringement.     According to
                 DARPA, the complainant had not communicated any allegations of patent infringement
                 to DARPA, nor had DARPA received any notices of patent infringement from Boeing
                 or its subcontractors.




12 │ DODIG-2013-106
                                                                                            Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from November 2012 through July 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our conclusions based on our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

We performed the audit in response to a congressional request from Senator Sherrod
Brown and a constituent’s allegations relating to contracts improperly awarded for disc-
rotor technology research and development. As a result, we reviewed contracts HR0011-
07-C-0076 and HR0011-09-C-0056 and DARPA contract procedures.

Our audit included three major areas of review.        Our review concentrated on the
solicitation, pre-award, and award of contracts HR0011-07-C-0076 and HR0011-
09-C-0056. Initial audit work was performed at DARPA headquarters, Arlington, Virginia.
We reviewed documentation maintained by the contracting personnel to support Broad
Agency Announcement (BAA) 06-15. The documents reviewed included the BAAs, basic
contracts, initial proposals, white papers, justification and approval, Federal Business
Opportunities solicitation and award notices, technical evaluations, and other contract
documentation relating to the BAA and the contract awards. Much of the information was
obtained from copies of the contracting file DARPA personnel provided. We reviewed only
the allegations on the award of contracts HR0011-07-C-0076 and HR0011-09-C-0056 for
disc-rotor technology research and development in the congressional request.

We reviewed program and contract documentation, and interviewed program and
contracting personnel responsible for contract solicitations, source selections, and
contract awards.

We reviewed two DARPA contract files, HR0011-07-C-0076 and HR0011-09-0056, to
determine whether contracting personnel:

        •	 Complied with Federal Acquisition Regulation (FAR) Part 35 and DARPA
           Instruction No. 13 for soliciting, evaluating, and selecting proposals;

        •	 Complied with FAR Part 5, for publicizing contract actions;




                                                                                       DODIG-2013-106 │ 13
Appendixes



                          •	 Complied with FAR Part 6.3, for other than full and open competition; and

                          •	 Included clauses FAR 52.227-1 and FAR 52.227-2 in the use or manufacture of
                             an invention covered by U.S. patents, data, and copyrights.

                 For contracts HR0011-07-C-0076 and HR0011-09-0056, awarded to Boeing, we reviewed
                 DARPA solicitation and source selection practices as well as DARPA or DARPA-designated
                 contract award practices. To determine the adequacy of DARPA’s solicitation process, we
                 reviewed BAA 06-15 to determine whether the solicitation was posted on the Federal
                 Business Opportunities website, https://www.fedbizopps.gov, applicable evaluation
                 criteria was included in the solicitation, and contractors were provided sufficient time to
                 submit proposals in response to the solicitation. We evaluated DARPA’s source selection
                 procedures and reviewed DARPA guidance to determine whether source selection
                 personnel evaluated proposals based on published criteria, and adequately documented
                 the basis for each source selection decision. We determined whether DARPA properly
                 used noncompetitive procedures for one contract action, and we reviewed the justification
                 and approval for other than full and open competition for compliance with FAR
                 policies and procedures. We determined whether DARPA personnel properly awarded
                 contracts to Boeing for disc-rotor blade technology. We did not make a determination
                 on whether DARPA personnel improperly awarded contracts to Boeing that infringed on
                 the complainant’s patents for disc-rotor blade technology. Defense Federal Acquisition
                 Regulation Supplement (DFARS) subpart 227.70 provides private parties with a process
                 for filing administrative claims for patent infringement against DoD Components. A civil
                 suit for patent infringement against the United States may also be filed in the U.S. Court
                 of Federal Claims under section 1498, title 28 United States Code (28 U.S. C. 1498[2012].


                 Use of Computer-Processed Data
                 We did not use computer-processed data to perform this audit.


                 Use of Technical Assistance
                 We consulted with the Office of the Inspector General, Office of General Counsel to identify
                 applicable patent infringement laws and regulations and the interpretation of the patent
                 infringement laws and regulations.


                 Prior Coverage
                 No prior coverage has been conducted on the DARPA awarding contracts to Boeing for
                 disc-rotor technology research and development during the last 5 years.




14 │ DODIG-2013-106
                             Appendixes




Appendix B
Congressional Request




                        DODIG-2013-106 │ 15
Appendixes




                 Appendix C
                 Federal Acquisition Regulation Criteria
                 Federal Acquisition Regulation Subpart 5.2, “Synopses of
                 Proposed Contract Actions”
                 Federal Acquisition Regulation (FAR) 5.201, “General,” requires agencies to provide a
                 synopsis of proposed contract actions for the acquisition of supplies and services. The
                 contracting officer must submit the synopsis to the Government point of entry that can
                 be accessed at https://www.fedbizopps.gov. FAR 5.202, “Exceptions,” lists circumstances
                 when the contracting officer does not need to submit a synopsis, such as when a contract
                 action cites an unusual and compelling urgency as the exception to full and open
                 competition. In addition, FAR 5.203, “Publicizing and Response Time,” requires at least a
                 45-day response time for receipt of bids or proposals from the date of publication of the
                 notice required for proposed contract actions categorized as research and development
                 if the proposed contract action is expected to exceed the simplified acquisition threshold.
                 However, the contracting officer may establish a shorter period of issuance for commercial
                 items. FAR 5.207, “Preparation and Transmittal of Synopses,” requires each synopsis
                 submitted to the Government point of entry to include certain data elements as applicable,
                 such as the date of the synopsis, the closing response date, a proposed solicitation number,
                 a description, and the point of contact or contracting officer.


                 Federal Acquisition Regulation Subpart 5.3, “Synopses of
                 Contract Awards”
                 FAR 5.301, “General,” requires contracting officers to synopsize through the Government
                 point of entry any contract awards exceeding $25,000 that are covered by the World
                 Trade Organization Government Procurement Agreement or a Free Trade Agreement; or
                 likely to result in the award of any subcontracts. However, the dollar threshold is not a
                 prohibition against publicizing an award of a smaller amount when publicizing would be
                 advantageous to industry or to the Government. According to FAR 5.303, “Announcement
                 of Contracts Awards,” contracting officers shall make information available on awards over
                 $4 million (unless another dollar amount is specified in agency acquisition regulations)
                 in sufficient time for the agency concerned to announce it by 5 p.m. Washington,
                 District of Columbia, time on the day of award. Agencies shall not release information
                 on awards before the public release time of 5 p.m. Washington, District of Columbia
                 time.




16 │ DODIG-2013-106
                                                                                                   Appendixes



Federal Acquisition Regulation Subpart 6.3, “Other Than Full
and Open Competition”
FAR subpart 6.3 prescribes the policies and procedures for contracting without full and
open competition. Contracting without full and open competition is a violation of statute,
unless permitted by an exception listed in FAR 6.302, “Circumstances Permitting Other
Than Full and Open Competition.” FAR 6.302 presents seven exceptions for contracting
without full and open completion.

         •	 FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
            Will Satisfy Agency Requirements;”

         •	 FAR 6.302-2, “Unusual and Compelling Urgency;”

         •	 FAR 6.302-3, “Industrial Mobilization; Engineering, Development, or Research
            Capability; or Expert Services;”

         •	 FAR 6.302-4, “International Agreement;”

         •	 FAR 6.302-5, “Authorization or Required by Statute;”

         •	 FAR 6.302-6, “National Security;” and

         •	 FAR 6.302-7, “Public Interest.”

A contracting officer must not begin negotiations for or award a noncompetitive
contract without providing full and open competition unless the contracting officer
justifies the use of such action in writing, certifies the accuracy and completeness of the
justification, and obtains approval of the justification. FAR 6.303-2, “Content,” requires
each justification to contain sufficient facts and rationale to justify the use of the authority
cited. At a minimum, each justification must contain:

         •	 the name of the agency and contracting activity and identification of the
            document as a “Justification for other that full and open competition;”

         •	 a description of the action being approved;

         •	 a description of the supplies or services required to meet the agency’s needs,
            including the estimated value;

         •	 the statutory authority permitting other than full and open competition;

         •	 a demonstration that the contractor’s unique qualifications or the nature of
            the acquisition requires the use of the authority cited;




                                                                                              DODIG-2013-106 │ 17
Appendixes



                          •	 a description of the efforts made to ensure offers are submitted from as many
                            sources as practicable, including whether a notice was or will be publicized;

                          •	 the contracting officer’s determination that the cost to the Government will be
                            fair and reasonable;

                          •	 a description and the results of the market research conducted or, if market
                            research was not conducted, a reason it was not conducted;

                          •	 any other facts supporting the use of other that full and open competition;

                          •	 a listing of sources that expressed written interest in the acquisition;

                          •	 a statement of the actions the agency may take to overcome any barriers to
                            competition before a subsequent acquisition; and

                          •	 the contracting officer’s certification that the justification is accurate and
                            complete to the best of their knowledge and belief.

                 FAR 6.304, “Approval of the Justification,” identifies the person responsible for approving
                 the Justification and Approval (J&A) based on the value of the proposed contract. The
                 thresholds discussed are the thresholds that were in place during the scope of the
                 audit. The contracting officer approves the J&A for a proposed contract not exceeding
                 $550,000. The competition advocate approves the J&A for a proposed contract of more
                 than $550,000 but not exceeding $11.5 million. A general or flag officer, if a member of
                 the military, or civilian in a position above GS-15 under the general schedule, approves
                 the J&A for a proposed contract of more the $11.5 million but not exceeding $78.5 million.
                 The senior procurement executive of the agency approves the J&A for a proposed contract
                 of more than $78.5 million.


                 Federal Acquisition Regulation Part 10, “Market Research”
                 FAR part 10 prescribes policies and procedures for conducting market research to
                 arrive at the most suitable approach for acquiring, distributing, and supporting supplies
                 and services. Agencies are required to conduct market research appropriate to the
                 circumstances before soliciting offers for acquisitions with an estimated value over the
                 simplified acquisition threshold. Agencies are required to use the results of market
                 research to determine if there are appropriate sources or commercial items capable of
                 satisfying the agency’s requirements. The extent of market research the agencies conduct
                 varies, depending on factors such as urgency, estimated dollar value, complexity, and past
                 experience. Agencies use market research techniques, such as contacting knowledgeable
                 individuals in Government and industry, reviewing results of recent market research,




18 │ DODIG-2013-106
                                                                                                 Appendixes



publishing formal request for information, querying databases, participating in online
communication, obtaining source lists of similar items, and reviewing available product
literature. Agencies should document the results of market research in a manner
appropriate to size and complexity of the acquisition.


Federal Acquisition Regulation Subpart 15.3, “Source
Selection”
FAR subpart 15.3, “Source Selection,” states that the award decision is based on evaluation
factors and significant subfactors that are tailored to the acquisition. The evaluation
factors and significant subfactors that apply to an acquisition and their relative importance
are within the broad discretion of agency acquisition personnel, subject to the following
requirements.

         •	 Price or cost to the Government shall be evaluated in every source selection.

         •	 The quality of the product or service shall be address in every source selection
            through consideration of one or more non-cost evaluation factors, such as past
            performance, compliance with solicitation requirements, technical excellence,
            management capability, personnel qualification, and prior experience.

         •	 Except when not appropriate, past performance shall be evaluated in all
            source selections for negotiated competitive acquisitions expected to exceed
            the simplified acquisition threshold.

FAR Subpart 15.304(d) states that while the rating method need not be disclosed,
all factors and significant subfactors that will affect contract award and their relative
importance should be stated clearly in the solicitation.        The general approach for
evaluation past performance information should be described. In addition, the solicitation
should also state, at a minimum, whether all evaluation factors other than cost or price,
when combined, are significantly more important, approximately equal to, or significantly
less important that cost or price.




                                                                                            DODIG-2013-106 │ 19
Appendixes




                 Appendix D
                 Broad Agency Announcement 06-15
                 Defense Advanced Research Projects Agency (DARPA) Tactical Technology Office (TTO)
                 personnel issued Broad Agency Announcement (BAA) 06-15 to solicit proposals for
                 advanced research and development of system- and subsystem-level technologies that
                 enable revolutionary improvements in the efficiency and effectiveness of the military
                 on March 20, 2006. The goal of the program was to develop novel ideas in the areas of
                 aerospace systems and tactical multipliers. DARPA personnel would consider a broad
                 range of technologies but would focus on the high-risk/high-payoff development and
                 demonstration of complete systems or subsystems rather than advances in basic sciences.
                 DARPA personnel also encouraged offerors to look at www.darpa.mil for their current
                 activities. DARPA personnel anticipated multiple awards from FY 2006 funds and stated
                 awards under this BAA would be made to offerors on the basis of the evaluation criteria
                 and program balance to provide best value to the Government.




20 │ DODIG-2013-106
                                                               Acronyms and Abbreviations




Acronyms and Abbreviations
     BAA Broad Agency Announcement
  DARPA Defense Advanced Research Projects Agency
   DFARS Defense Federal Acquisition Regulation Supplement
     FAR Federal Acquisition Regulation
      IG Inspector General
     J&A Justification and Approval
    R&D Research and Development
     TTO Tactical Technology Office
     VPI Virginia Polytechnic Institute and State University
    VTOL Vertical Take-Off/Vertical Landing




                                                                          DODIG-2013-106 │ 21
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
